                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: 112080058                                                                    Page 1 of 1



                                                                                                        2
         We received an allegation that a PI 1 might have submitted duplicate research proposals to NSF
         and another federal agency. 3 We compared the objectives and work descriptions in the PI's NSF
         proposal and the proposal submitted to the other agency, using plagiarism detection software.
         The proposals contained significant overlapping text regarding project objectives. However, the
         proposals contained minimal overlap regarding work descriptions.

         We found no issues with the PI's NSF award, which was active prior to his award from the other
         agency. Therefore, NSF was not victimized by research duplication. Accordingly, our
         investigation is closed.




NSF OIG Form 2 (11/02)
